                                                                                                	  




                OFFICE OF INSPECTOR GENERAL
                                 	  
                                 	  
                  FINANCIAL MANAGEMENT SYSTEM &
                      COMPLIANCE EVALUATION
                         ON NEA GRANTS TO


        MOSAIC YOUTH THEATRE OF DETROIT
                                                                  Detroit, MI

                                                   Report No. SCE-10-02A
                                                       April 30, 2010




                                                    REPORT RELEASE RESTRICTION

In	  accordance	  with	  Public	  Law	  110-­‐409,	  The	  Inspector	  General	  Act	  of	  2008,	  this	  report	  shall	  be	  posted	  on	  
the	  National	  Endowment	  for	  the	  Arts	  (NEA)	  website	  not	  later	  than	  three	  (3)	  days	  after	  it	  is	  made	  publicly	  
available	  with	  the	  approval	  of	  the	  NEA	  Office	  of	  Inspector	  General.	  	  Information	  contained	  in	  this	  report	  
may	  be	  confidential.	  	  The	  restrictions	  of	  18	  USC	  1905	  should	  be	  considered	  before	  this	  information	  is	  
released	  to	  the	  public.	  	  Furthermore,	  information	  contained	  in	  this	  report	  should	  not	  be	  used	  for	  
purposes	  other	  than	  those	  intended	  without	  prior	  consultation	  with	  the	  NEA	  Office	  of	  Inspector	  General	  
regarding	  its	  applicability.
                                   INTRODUCTION


BACKGROUND

Mosaic Youth Theatre of Detroit (Theatre) was founded by Rick Sperling in 1992. The Theatre
is an internationally acclaimed youth development program that concentrates on helping young
artists excel on stage and in life. Through these training programs, the Theatre is developing
talented young artists and new, diverse audiences for the performing arts.


OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the National
Endowment for the Arts (NEA) Office of Inspector General (OIG) is to determine whether the
organization’s financial management system and recordkeeping complies with the requirements
established by the Office of Management and Budget (OMB) and NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms). The
evaluation was conducted in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections, as applicable.

PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit reports
on Federal grants awarded to the Theatre. As of our site visit October 8, 2008, the most recent
issued independent auditor’s report on the financial statements of the Theatre was for the year
ended August 31, 2007. The audit was conducted by Boisvenu & Company, P.C., CPAs, which
issued an unqualified (clean) opinion. The Theatre was not subject to the audit requirements of
OMB Circular A-133.


                           RESULTS OF EVALUATION
Our evaluation concluded that the Theatre’s financial management system did not track grant
awards separately and had no written justification for the allocation method. In addition, the
Theatre included unallowable expenditures in their total reported outlays and did not maintain
personnel activity reports. The Theatre also did not have a Section 504 self-evaluation on file.
Details are presented in the following narrative:

FINANCIAL MANAGEMENT
The Mosaic Youth Theatre of Detroit (Theatre) did not identify costs by specific grants in its
accounting system. The NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms) incorporates OMB’s Circular A-110 (Uniform
Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations), which addresses the requirement to have an
                                                                                                   1
adequate financial management system. The General Terms also refers to the OIG Financial
Management Guide for Non-Profit Organizations, which states in part:

       Recipients must have accounting structures that provide accurate and complete information
       about all financial transactions related to each Federally-supported project.

       Records of expenditures must be maintained for each grant project by the cost categories of
       the approved budget (including indirect costs that are charged to the project), and actual
       expenditures are to be compared with budgeted amounts.

In addition, amounts reported on the Financial Status Reports submitted by the Theatre could not
be traced to the accounting records. According to the Theatre’s official, the costs reported were
estimates based on his history of working with the staff and projects. The OMB Circular A-122,
Cost Principles for Non-Profit Organizations, states if an allocation method is used, it should be
justified in writing, which the Theatre did not do.

Based on the two findings above, we are questioning $913,158, the total reported outlays of
$917,400 less the unallowable costs of $4,242, which could result in a potential refund of the
total award amount of $55,000. Therefore, we are requesting additional documentation to
support the amount of the total outlays reported on the Financial Status Report.

We are recommending the Theatre develop and implement a financial management system to
track expenditures separately by grant awards. We also recommend written procedures are
developed and implemented to ensure that justifications for any allocation methods used are
documented.

PERSONNEL ACTIVITY REPORTS

The Mosaic Youth Theatre of Detroit did not maintain personnel activity (time and effort)
reports for Grant No. 06-5100-8170, which was awarded $55,000 for the period September 1,
2006 through August 31, 2007. At the time of the award, personnel activity reports were
required for all employees whose salaries and fringe benefits are charged, in whole or in part, to
either the award or the matching funds if the award is $50,000 or more. This requirement is
mandated by OMB and is detailed in NEA’s General Terms. A sample personnel activity report
is also provided in the General Terms.

As a result of not maintaining personnel activity reports, we are questioning salaries and fringe
benefits totaling $448,892. However, the salaries and fringe benefits total cost of $448,892 is
included in the total questioned cost under the Financial Management section.

We are recommending the Theatre develop and implement written procedures to ensure that
individual personnel activity reports are maintained for employees whose salaries are charged, in
whole or in part, to future grant awards that are $50,000 or more.




                                                                                                     2
UNALLOWABLE EXPENSE

Mosaic Youth Theatre of Detroit included $4,242 of expenditures listed under Bad Debt. OMB
Circular A-122, “Cost Principles for Nonprofit Organizations,” states:

       “Bad debts, including losses (whether actual or estimated) arising from uncollectable
       accounts and other claims, related collection costs, and related legal costs, are unallowable.”

We are recommending the Theatre develop and implement written procedures to ensure
that only allowable costs are included in the reported total outlays.

SECTION 504 SELF-EVALUATION
The Mosaic Youth Theatre of Detroit did not have a Section 504 self-evaluation on file. As
noted in NEA’s General Terms and Conditions for Grants and Cooperative Agreements to
Organizations, “A Section 504 self-evaluation must be on file at your organization.” A Section
504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs.

GRANT POLICIES AND PROCEDURES

The Mosaic Youth Theatre of Detroit did have documented accounting policies and procedures.
However, the procedures did not include guidance for management of Federal grants. We
believe that the accounting policies could be strengthened by incorporating Federal grant
guidance and will also benefit the organization in the event of personnel changes. These
policies could incorporate publications such as the NEA General Terms, NEA Financial
Management Guide for Non-profit Organizations, and applicable OMB Circulars. It can also
include instructions for reporting actual and allowable expenditures on the Federal Financial
Report, cost allocation methods and personnel activity reports.

EXIT CONFERENCE

An exit conference was held with the Theatre officials on October 8, 2008 with a follow-up
telephone call on March 30, 2010. They concurred with our findings and recommendations.

                                                                                                         3
                              RECOMMENDATION
We recommend that the Theatre:


   1. Provide additional documentation to support the amount of total outlays reported on the
      Final Status Report under grant number 06-5100-8170. Based on our review of the
      documentation provided, we will determine if any refund is due to the NEA. Without
      additional documentation, the potential refund is $55,000 under this grant.

   2. Develop and implement a financial management system to track expenditures separately
      by grant awards.

   3. Developed and implemented written procedures to ensure that justifications for any
      allocation methods used are documented.

   4. Develop and implement written procedures to ensure that individual personnel activity
      reports are maintained for employees whose salaries are charged, in whole or in part, to
      future grant awards that are $50,000 or more.

   5. Develop and implement written procedures to ensure that only allowable costs are
      included in the reported total outlays.

   6. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act
      of 1973, as amended. (A copy of this completed document will be provided to the NEA’s
      Civil Rights/EEO Office.)




                                                                                                 4
